TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                While Efforts Are Ongoing to Deploy a Secure
                Mechanism to Verify Taxpayer Identities, the
                Public Still Cannot Access Their Tax Account
                         Information Via the Internet


                                      September 25, 2013

                            Reference Number: 2013-20-127




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


WHILE EFFORTS ARE ONGOING TO                           in Release 1 of the eAuthentication application,
DEPLOY A SECURE MECHANISM TO                           which will be addressed in future releases.
VERIFY TAXPAYER IDENTITIES, THE                        Finally, TIGTA noted that total cost information
PUBLIC STILL CANNOT ACCESS THEIR                       for the project is not readily obtainable for
                                                       project management.
TAX ACCOUNT INFORMATION VIA THE
INTERNET                                               WHAT TIGTA RECOMMENDED
                                                       TIGTA recommended that the IRS reprioritize its
Highlights                                             efforts to develop and implement applications
                                                       that both serve the taxpayer and comply with
Final Report issued on September 25,                   RRA 98 requirements. TIGTA also
2013                                                   recommended that the IRS perform complete
                                                       capacity testing of the eAuthentication
Highlights of Reference Number: 2013-20-127            application prior to Release 2 and continue its
to the Internal Revenue Service Chief                  efforts in upgrading the reporting functionality of
Technology Officer.                                    the eAuthentication application. Finally, TIGTA
                                                       recommended that the IRS coordinate to
IMPACT ON TAXPAYERS                                    develop a formal system to provide reports of
                                                       actual costs received and accepted by
While the IRS Restructuring and Reform Act of
                                                       Contracting Officer Representatives.
1998 (RRA 98) required the IRS to develop
procedures to allow taxpayers filing returns           In their response, IRS management agreed with
electronically to review their accounts online by      three of our four recommendations. The IRS
December 31, 2006, the IRS did not meet this           plans to prioritize release of applications that
requirement. Allowing taxpayers to securely            meet the requirements of RRA 98, complete
access tax information online will modernize           performance and capacity testing as part of
how the IRS interacts with taxpayers, allow for        Release 2 of the eAuthentication application,
faster response to queries from the general            and to increase reporting functionality in
public, and thereby greatly reduce taxpayer            Release 2 of the eAuthentication application.
burden.
                                                       Although IRS management agreed with the
WHY TIGTA DID THE AUDIT                                intent and spirit of the fourth recommendation,
This audit was initiated at the request of the IRS     they disagreed with our finding, which they
Oversight Board to evaluate the IRS’s progress         consider an isolated example and therefore no
in providing taxpayers with secure online access       further action is necessary. During the audit, we
to their tax account information.                      found that the existing procurement system
                                                       cannot track sufficient detail to the project cost
WHAT TIGTA FOUND                                       levels for contracts serving multiple projects,
                                                       such as the eAuthentication project. As such,
The IRS successfully implemented Release 1 of
                                                       we believe that this is not an isolated occurrence
the eAuthentication application during Fiscal
                                                       and that it needs to be addressed to ensure
Year 2012, which allowed a small number of
                                                       actual project costs can be readily identified and
taxpayers to securely verify their identities with
                                                       tracked for management and decision making
the IRS and participate in the eTranscripts for
                                                       purposes.
Banks application. While several applications
have been developed and implemented by the
IRS, none of these applications meet the RRA
98 requirements. However, TIGTA also
determined that required capacity testing was
not adequately completed to ensure that the
eAuthentication application can support the
expected number of users at any given time and
noted deficiencies with the reporting functionality
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 25, 2013


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – While Efforts Are Ongoing to Deploy a Secure
                             Mechanism to Verify Taxpayer Identities, the Public Still Cannot
                             Access Their Tax Account Information Via the Internet
                             (Audit # 201220003)

 This report presents our review of the Internal Revenue Service’s efforts to implement a secure
 mechanism to verify taxpayer identities and allow the public to access their tax account
 information via the internet. This audit was included in our Fiscal Year 2012 Annual Audit Plan
 addresses the major management challenge of Security for Taxpayer Data and Employees.
 Management’s complete response to the draft report is included in Appendix IV. Copies of this
 report are also being sent to the IRS managers affected by the report recommendations.
 If you have any questions, please contact me or Alan Duncan, Assistant Inspector General for
 Audit (Security and Information Technology Services).


 Attachment
                         While Efforts Are Ongoing to Deploy a Secure Mechanism to
                          Verify Taxpayer Identities, the Public Still Cannot Access
                               Their Tax Account Information Via the Internet




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Applications Were Created to Increase Online Taxpayer
          Functionality; However, These Applications Do Not Meet
          the Criteria of the Restructuring and Reform Act of 1998 ........................... Page 4
                    Recommendation 1:.......................................................... Page 5

          Release 1 of the eAuthentication Application Was
          Successfully Deployed in Fiscal Year 2012 ................................................. Page 5
          Complete Capacity Testing for the eAuthentication
          Application Was Not Performed ................................................................... Page 7
                    Recommendation 2:.......................................................... Page 8

          Reporting Functionality Will Be Improved in Release 2
          of the eAuthentication Application ............................................................... Page 8
                    Recommendation 3:.......................................................... Page 9

          Actual Cost Information Is Not Readily Available for
          Project Management Purposes ...................................................................... Page 9
                    Recommendation 4:.......................................................... Page10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 11
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Management’s Response to the Draft Report ...................... Page 15
         While Efforts Are Ongoing to Deploy a Secure Mechanism to
          Verify Taxpayer Identities, the Public Still Cannot Access
               Their Tax Account Information Via the Internet




                        Abbreviations

COR              Contracting Officer Representative
ID               Identification
IRS              Internal Revenue Service
IT               Information Technology
MIRSA            My IRS Account
RRA 98           Restructuring and Reform Act of 1998
                      While Efforts Are Ongoing to Deploy a Secure Mechanism to
                       Verify Taxpayer Identities, the Public Still Cannot Access
                            Their Tax Account Information Via the Internet




                                              Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98)1 requires
the IRS to allow taxpayers to access tax account information online. In addition, other Federal
mandates, including the Office of Management and Budget Memorandum M-04-04
(eAuthentication2 Guidance for Federal Agencies) and the President’s National Strategy for
Trusted Identities in Cyberspace, provide guidance to the IRS for undertaking such an endeavor.
In April 2006, the IRS initiated the My IRS Account (MIRSA) project to provide taxpayers with
an online system to view, access, update, and manage their tax accounts. In December 2008,
after 32 months of development and the expenditure of approximately $10 million, the MIRSA
project was cancelled due to a lack of an effective enterprise-wide eAuthentication strategy.
In its 2009 report,3 the Treasury Inspector General for Tax Administration recommended that the
IRS complete a long-term strategy for the MIRSA project. As part of the planned corrective
actions to the MIRSA project, the IRS stated that it would develop a strategic approach that will
provide individual taxpayers online access to their transcript information through the primary
IRS website, IRS.gov, via the Registered User Portal.4 Taxpayers would have the ability to view,
download, and print their transcript information. In August 2010, the IRS completed the “Online
Services Strategic Approach,” which outlined the IRS’s priorities for online services for
individual taxpayers. While the strategic approach has been completed, it is a draft version and
not ready for distribution.
In conjunction with the Online Services Strategic Approach, the eAuthentication application is a
new effort in which the IRS plans to leverage the Registered User Portal authentication and
registration processes to provide the desired identity verification services bolstered by selected
commercial off-the-shelf software products. The objective of the IRS eAuthentication project is


1
  Restructuring and Reform Act of 1998, Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C.,
and 49 U.S.C.).
2
  eAuthentication is defined as the process of establishing confidence in user identities electronically presented to an
information system. Systems can use the authenticated identity to determine if that individual is authorized to
perform an electronic transaction. In most cases, the authentication and transaction take place across an open
network such as the Internet, however in some cases access to the network may be limited and access control
decisions may take this into account.
3
  Treasury Inspector General for Tax Administration, Ref. No. 2009-20-102, Changing Strategies Led to the
Termination of the My IRS Account Project 3, (August 2009)
4
  A portal is defined as a website that brings information together from diverse sources in a uniform way. Usually,
each information source gets its dedicated area on the page for displaying information. The Registered User Portal
is an IRS external portal that allows registered individuals and third-party users to access the IRS for interaction
with selected tax processing and other sensitive systems, applications, and data.
                                                                                                                Page 1
                     While Efforts Are Ongoing to Deploy a Secure Mechanism to
                      Verify Taxpayer Identities, the Public Still Cannot Access
                           Their Tax Account Information Via the Internet



to design and build a common service to proof and register individuals and to provide and
validate credentials for ongoing system access using the Internet. The IRS expects that the
eAuthentication project will be an enabling service to other applications that are accessible by
the public. The eAuthentication project will not build end-user applications but will provide
centralized security mechanisms for applications that are built.
The IRS estimated total costs for Release 1 and Release 2 of the eAuthentication application,
including Operations and Maintenance through Fiscal Year 2017, at approximately
$65.3 million. Release 1 was deployed at a total development cost of about $26.9 million and
provided the core infrastructure (hardware and software) upon which subsequent releases are
based. Release 2 development costs are estimated at approximately $8.5 million and should
provide enhanced identity verification up to multifactor authentication.5 The IRS estimates the
base operations and maintenance costs for the eAuthentication application through Release 2 at
approximately $29.9 million, not including per-transaction costs. A third release of the
eAuthentication application is anticipated; however, no approved cost or schedule is currently
available.
The responsibility for managing the eAuthentication application and implementing its rollout
resides with the Information Technology (IT) Cybersecurity organization. The IT Cybersecurity
organization manages the eAuthentication application by following the Enterprise Life Cycle6
and is the overall business and program owner. The IRS uses its Transition Management
processes to transfer the daily management of the eAuthentication application to the Enterprise
Operations organization and other receiving organizations. To ensure the success of information
technology projects, the IRS requires project managers to report to an executive governance
committee for oversight and approval of key decisions. The Security Services and Privacy
Executive Steering Committee provides this oversight and conducts Enterprise Life Cycle
milestone exit reviews for the eAuthentication application.
The rollout of IRS online applications to be protected by the eAuthentication framework is
shared by the Office of Online Services, the Wage and Investment Division, the Office of
Privacy, Governmental Liaison and Disclosure, and IT organizations including Applications
Development and Cybersecurity. The Office of Online Services, which reports directly to the
Office of the Deputy Commissioner for Services and Enforcement, is an IRS-wide group
dedicated to providing online (web or mobile) self-service tools for the taxpayer.




5
  Multifactor authentication is defined as a security system in which more than one form of authentication is
implemented to verify the legitimacy of a transaction. Multifactor authentication is achieved by combining two or
three independent credentials: what the user knows (knowledge-based authentication), what the user has (security
token or smart card) and what the user is (biometric verification).
6
  Enterprise Life Cycle is defined as the approach used by IRS to manage and implement business changes through
information systems initiatives.
                                                                                                          Page 2
                  While Efforts Are Ongoing to Deploy a Secure Mechanism to
                   Verify Taxpayer Identities, the Public Still Cannot Access
                        Their Tax Account Information Via the Internet



This review was performed at the IRS National Headquarters in Washington, D.C., and the IRS
IT Cybersecurity function and the Office of Online Services in New Carrollton, Maryland,
during the period November 2012 through June 2013. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                   While Efforts Are Ongoing to Deploy a Secure Mechanism to
                    Verify Taxpayer Identities, the Public Still Cannot Access
                         Their Tax Account Information Via the Internet




                                 Results of Review

Applications Were Created to Increase Online Taxpayer Functionality;
However, These Applications Do Not Meet the Criteria of the
Restructuring and Reform Act of 1998
The RRA 98 required the IRS to develop procedures to allow taxpayers filing returns
electronically to review their account online by December 31, 2006. The IRS did not meet this
requirement, and we determined that the IRS has not made adequate progress in allowing
taxpayers to access tax accounts. Currently, taxpayers cannot review account information
electronically. The IRS Oversight Board is aware that a disparity exists between what is required
by Congress and the amount of Internet accessibility currently available to taxpayers. In
April 2012, the Oversight Board requested that the Treasury Inspector General for Tax
Administration audit the IRS’s progress to provide taxpayers with the ability to review tax
account records and report any findings. The eTranscripts for Banks application does not meet
the intent of the RRA 98 because it only allows taxpayers to request that their tax account and
tax return transcripts be sent to their lending institution electronically versus a hardcopy request.
It does not provide the ability to view, print, or perform any other functions.
We believe that IRS leadership did not prioritize the applications that meet the requirements of
the RRA 98. Rather, the IRS devoted resources to the development and implementation of
several applications that do not meet the intent of the RRA 98. These are the eTranscripts for
Banks, Where’s My Refund?, and Where’s My Amended Return? applications. The
eTranscripts for Banks application, which was deployed in August 2012, allows taxpayers to
request that a tax transcript be sent to a lending institution electronically. The Where’s My
Refund? application allows taxpayers to track the status of their refund. This application,
originally deployed in 2002, was called the Internet Refund Fact of Filing application, and was
redeployed with enhancements in January 2013. The Where’s My Amended Return? application
allows taxpayers to track the status of an amended return and was deployed in March 2013.
While the applications do not directly address the requirements of account review, the
applications do provide ancillary benefits to taxpayers.
The IRS online Get Transcript application is expected to be the first application to meet the
intent of the RRA 98. The Get Transcript application will allow taxpayers to access their tax
account information via the Internet. Through discussions with Get Transcript application
personnel, we were informed that the application is expected to be deployed in January 2014.




                                                                                              Page 4
                   While Efforts Are Ongoing to Deploy a Secure Mechanism to
                    Verify Taxpayer Identities, the Public Still Cannot Access
                         Their Tax Account Information Via the Internet



In its April 2013 report, the Government Accountability Office7 stated that while the IRS’s
efforts have already benefited taxpayers and hold the promise of additional benefits in the future,
the IRS does not have a long-term strategy for enhancing its website that explains how its
ongoing and new efforts fit together. No overall cost estimate exists, and there are not enough
details on goals, deliverables, future online services, and time frames to be able to assess
progress.
Because the deadlines proposed in the RRA 98 were not met, taxpayers’ ability to electronically
fulfill their tax responsibilities and review their tax account information using the Internet is
diminished. In addition, there is an increased burden on IRS customer service representatives
answering taxpayer’s calls and questions for transcript requests by not implementing an online
application that is RRA 98 compliant.

Recommendation
Recommendation 1: The Office of the Deputy Commissioner for Services and Enforcement
should reprioritize future applications to meet the RRA 98 requirements on or before
January 2014. The prioritization will need to be coordinated with the IT organization.
        Management’s Response: The IRS agreed with this recommendation. The IRS has
        prioritized future applications based on internal and external stakeholder needs, information
        technology constraints and safeguards, and requirements such as RRA 98. The Get
        Transcript application is scheduled to launch in January 2014 and will give taxpayers the
        ability to view, print and download their tax transcripts. The IRS also plans to increase
        interactive capabilities and identify additional features associated with an account. Using
        available resources cost effectively, the IRS will prioritize the rollout of features by
        delivering the most impactful capabilities first.

Release 1 of the eAuthentication Application Was Successfully
Deployed in Fiscal Year 2012
The E-Government Act of 20028 requires Government agencies to increase their presence on the
Internet. The purpose of the act is “to promote use of the Internet and other information
technologies to provide increased opportunities for citizen participation in Government” and “to
promote the use of the Internet and emerging technologies within and across Government
agencies to provide citizen-centric Government information and services.” Additionally, the
RRA 98 requires the IRS to develop procedures under which taxpayers filing returns



7
  Government Accountability Office, GAO-13-435, IRS WEBSITE: Long-Term Strategy Needed to Improve
Interactive Services (Apr. 2013).
8
  E-Government Act of 2002, Pub.L. 107–347, 116 Stat. 2899, 44 U.S.C. § 101, H.R. 2458/S. 803
                                                                                                    Page 5
                      While Efforts Are Ongoing to Deploy a Secure Mechanism to
                       Verify Taxpayer Identities, the Public Still Cannot Access
                            Their Tax Account Information Via the Internet



electronically would be able to review their accounts electronically. The eAuthentication
application is essentially the first step for the IRS to meet these legislative requirements.
In Fiscal Year 2012, the IRS developed the first release of an enterprise solution for
authenticating taxpayers via the Internet through its eAuthentication application. The main
function of the eAuthentication application is to provide a uniform way taxpayers can
authenticate9 themselves to the IRS before accessing any of the IRS’s online applications.
Taxpayers create an account with a user identification (ID) and password which is then used to
authenticate to the applications that use the eAuthentication application. To create an account, a
taxpayer must provide some basic information about themselves such as name, address, date of
birth, Social Security Number or other Taxpayer Identification Number, and filing status. The
IRS uses the attributes to verify the identity of the taxpayer. Once the taxpayer’s identity has
been verified, they are allowed to create an eAuthentication account.
In August 2012, the first application to use the eAuthentication application was deployed,
eTranscripts for Banks. The successful deployment of Release 1 of the eAuthentication
application is due to the coordinated efforts across the IRS organization. The Cybersecurity
organization led the effort and coordinated with the Applications Development organization on
the eAuthentication application and the deployment of eTranscripts for Banks as the first
projected application. The Office of Online Services coordinated the implementation of the
eAuthentication application with the eTranscripts for Banks application by establishing and
managing a proof of concept with banking partners to validate the concept of online identity
proofing and authentication.
The eTranscripts for Banks application allows taxpayers to request that tax transcripts be sent to
their lending institution online. Currently, there are three lending institutions that are enrolled to
use the eTranscripts for Banks application, and others are expected to use the application as well.
Release 2 of the eAuthentication application was formally started on October 24, 2012. Release
2 is expected to provide additional functionality and security and should allow more applications
to use the eAuthentication application for identity proofing. As more applications use the
eAuthentication application, the taxpayer experience online should be expanded.
Despite the successful deployment of Release 1 of the eAuthentication application, we identified
some areas of concern and improvement that will contribute to further successes in future
releases of the eAuthentication application.




9
  Authentication is the process of determining whether someone or something is, in fact, who or what it is declared
to be. In private and public computer networks (including the Internet), authentication is commonly done through
the use of logon passwords.
                                                                                                             Page 6
                  While Efforts Are Ongoing to Deploy a Secure Mechanism to
                   Verify Taxpayer Identities, the Public Still Cannot Access
                        Their Tax Account Information Via the Internet



Complete Capacity Testing for the eAuthentication Application Was
Not Performed
The Internal Revenue Manual states that capacity testing is a required part of system integration
testing. The purpose of capacity testing is to determine if the application can support the
expected number of users authenticating at any given time.
We determined that the IRS eAuthentication project team did not perform complete capacity
testing on Release 1 of the eAuthentication application. Without capacity testing, the IRS does
not know how many users can access the eAuthentication application at once before it fails. The
IRS estimated a total of 30,000 users would register to use the eAuthentication application to
access the eTranscripts for Banks application between August 2012 and November 2012.
However, the IRS reported that a total of 96 users requested to use the eAuthentication
application in that time period, and only 52 of the 96 users were successful in using the
eAuthentication application.
Capacity testing of the eAuthentication application was not fully performed due to instability of
the IRS information technology Development, Integration and Testing infrastructure, concerns
over the security of data in the testing environment, and scheduling delays caused by technical
issues in the eAuthentication application servers. Because of this, full scope capacity testing
could not be completed. Also, the test environment that would be used to conduct capacity
testing is shared by other testing organizations. Therefore, it would be impossible to secure the
environment and adequately protect the Personally Identifiable Information that would be
contained in the test data. Finally, the project team experienced technical difficulties that took
longer than expected to resolve. Due to these difficulties, management decided to move forward
with the project rather than delay implementation of the project.
Without performing adequate capacity testing, the IRS is unable to verify that the
eAuthentication application will function as intended. The system could become unresponsive
and make it impossible for taxpayers to access any application that relies upon the
eAuthentication application as the means to authenticate taxpayer identities. As the enterprise
wide solution for authentication, this lack of capacity testing could have far-reaching
implications. Any application using the eAuthentication application for identity proofing could
be taken offline due to bandwidth restrictions, thus making any IRS online application
inaccessible via the Internet to taxpayers.
The IRS has seen dramatic increases in the number of taxpayers who have attempted to access
their information via the IRS website, IRS.gov. The Where’s My Refund? application on
IRS.gov had 79 million attempted accesses by taxpayers in the 2011 Filing Season, 140 million
attempts in the 2012 Filing Season, and 218 million attempted accesses in the 2013 Filing
Season. If the IRS expects a similar response by taxpayers to the applications that will be
supported by Release 2 of the eAuthentication application, it is imperative that the IRS perform

                                                                                           Page 7
                  While Efforts Are Ongoing to Deploy a Secure Mechanism to
                   Verify Taxpayer Identities, the Public Still Cannot Access
                        Their Tax Account Information Via the Internet



capacity testing prior to its release. Through discussions with the eAuthentication project team,
we noted capacity testing has been included as part of the testing and verification portfolio for
Release 2 of the eAuthentication application.

Recommendation
Recommendation 2: The Associate Chief Information Officer, Cybersecurity, should ensure
that capacity testing is adequately performed for the eAuthentication application prior to Release
2 being deployed.
       Management’s Response: The IRS agreed with this recommendation. The
       eAuthentication Release 2 project, as already planned, includes performance and capacity
       testing as part of its Release 2 go-Live activities.

Reporting Functionality Will Be Improved in Release 2 of the
eAuthentication Application
The National Institute of Standards and Technology Special Publication 800-53, Recommended
Security Controls for Federal Information Systems and Organizations, states that an organization
should review and analyze information system audit records for indications of inappropriate or
unusual activity and report findings to designated organizational officials. It also states that an
information system should provide an audit report generation capability that provides support for
near real-time audit review, analysis, and reporting requirements and after-the-fact investigations
of security incidents.
We determined that Release 1 of the eAuthentication application has limited reporting
functionality. While actions taken by users within the eAuthentication application are identified
by user ID, these actions are not associated to a user’s actual name and, therefore, cannot be
associated to a specific taxpayer. Also, the user information captured by the application may
contain Personally Identifiable Information and, therefore, must be encrypted when it is stored
on the server. However, the IRS does not have a mechanism to make the encrypted data
readable. The IRS does have an Enterprise Security Audit Trail that has the ability to log
auditable events for each taxpayer transaction that does track the individual with their Social
Security Number. These transactions are available for designated security and audit individuals
but not generally available for management review.
For Release 2 of the eAuthentication application, the project team plans to use the internal
Business Objects Enterprise shared services infrastructure, which uses SAP Business Objects
suite of products, to meet reporting requirements. The Business Objects Enterprise capability
should enable the project team to provide stakeholders access to more useful reports for both
customer usage reporting and process effectiveness purposes.


                                                                                            Page 8
                  While Efforts Are Ongoing to Deploy a Secure Mechanism to
                   Verify Taxpayer Identities, the Public Still Cannot Access
                        Their Tax Account Information Via the Internet



Without adequate reporting functionality, the IRS is able to see minimal details about taxpayers
using the eAuthentication application. The expanded reporting functionality should provide the
IRS with application specific reports, taxpayer account reports, and system infrastructure reports.

Recommendation
Recommendation 3: The Associate Chief Information Officer, Cybersecurity, should
continue the efforts to acquire appropriate software to enable additional reporting functionality.
       Management’s Response: The IRS agreed with this recommendation. The
       eAuthentication Release 2 project, as already planned, includes integration with the existing
       IRS internal Business Objects Enterprise capability to enable broad management information
       system reporting. This will allow the project to configure the system to produce the
       following business approved reports, such as application specific reports, taxpayer account
       reports and system infrastructure reports.

Actual Cost Information Is Not Readily Available for Project
Management Purposes 
The Cybersecurity organization requires its projects to be tracked, monitoring baselines and
actual project costs on a monthly basis using the Cybersecurity Project Lifecycle Cost
Performance Table. This information is used to report project cost information to the various
governance boards. Additionally, the Cybersecurity organization required the project managers
to debrief management on the project baselines as it relates to scope, cost, and Enterprise Life
Cycle schedule within the months of December 2012 through March 2013. This debrief ensures
that the projects are able to provide realistic information for assessment.
We determined that actual cost information is not readily available for eAuthentication project
management. We were informed that the project office has no formal system to obtain actual
costs. The project manager uses a less formal approach (e.g., calling people or manually
tracking expenses) to obtain actual cost information.
The IRS has not implemented a system to provide project managers with timely, accurate project
cost information. Contracting Officer Representatives (COR), who have been delegated
responsibility for approving invoices and monitoring contractor payments, did not provide the
Cybersecurity eAuthentication project manager information on invoices they approved for
contracts used by the eAuthentication project on a monthly or any other basis.
Due to the informal nature of the process used, the cost information the project manager obtains
and ultimately reports to Cybersecurity organization executive management are estimates and
may be inaccurate and unreliable. Executive management should be given the best information
possible when making key resource decisions.


                                                                                             Page 9
                   While Efforts Are Ongoing to Deploy a Secure Mechanism to
                    Verify Taxpayer Identities, the Public Still Cannot Access
                         Their Tax Account Information Via the Internet



Recommendation
Recommendation 4: The Chief Technology Officer and Chief, Agency-Wide Shared
Services, should coordinate to develop a formal system to provide reports of actual costs
received and accepted by CORs.
       Management’s Response: While the IRS agreed with the spirit and intent of this
       recommendation, it does not agree with the finding, which was based on an isolated example
       of a single COR managing project cost. All Receipt and Acceptance transactions are done
       within the Integrated Procurement System. A reports module, accessible by all CORs, allows
       the COR to track Receipt and Acceptance transactions completed for each project. This
       standard business practice is already being followed at the IRS; thus, no further action is
       needed.
       Office of Audit Comment: During our audit, the Cybersecurity eAuthentication project
       manager was not able to provide us with actual cost information for the eAuthentication
       project. Subsequent discussions yielded that the Integrated Procurement System itself cannot
       track sufficient details to project cost levels for contracts that serve multiple projects, such as
       the eAuthentication project. As such, we believe this is not an isolated occurrence and needs
       to be addressed to ensure actual project costs can be readily identified and tracked for
       management and decision-making purposes.




                                                                                                 Page 10
                  While Efforts Are Ongoing to Deploy a Secure Mechanism to
                   Verify Taxpayer Identities, the Public Still Cannot Access
                        Their Tax Account Information Via the Internet



                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to assess the development and implementation of an effective
eAuthentication solution for taxpayers to access their tax information. To accomplish our
objective, we:
I.     Evaluated security testing and capacity testing to determine whether National Institute of
       Standards and Technology Special Publication 800-53 security controls, capacity limits,
       and the Internal Revenue Manual password policies over the eAuthentication application
       are operating effectively.
       A. Determined whether the IRS properly conducted performance/capacity testing for the
          eAuthentication application.
       B. Obtained and reviewed documentation related to the security risk assessment for the
          eAuthentication application and assessed selected National Institute of Standards and
          Technology Special Publication 800-53 controls.
II.    Determined whether only appropriate users have the ability to authenticate with the
       eAuthentication application, per the National Institute of Standards and Technology
       Special Publication 800-63.
       A. Determine whether only appropriate users have the ability to authenticate with the
          eAuthentication application. User populations were not obtainable and, therefore, no
          sample was taken.
       B. Determined through online observation/testing whether users are authenticated to the
          eAuthentication application using the following attributes: name, Social Security
          Number or other Taxpayer Identification Number, date of birth, address, and filing
          status.
III.   Determined the status of expanding the eAuthentication application to additional online
       applications and expanding the eTranscripts for Banks application to additional banks.
       A. Interviewed the eAuthentication project manager and Applications Development
          organization officials to determine their roles and responsibilities in the deployment
          of the eAuthentication application and the current plans and schedule to roll out the
          eAuthentication application to additional online applications and the eTranscripts for
          Banks application to additional banks.
       B. Interviewed Office of Online Services personnel, including the business project
          manager, to determine their roles and responsibilities in the deployment of the
                                                                                          Page 11
                      While Efforts Are Ongoing to Deploy a Secure Mechanism to
                       Verify Taxpayer Identities, the Public Still Cannot Access
                            Their Tax Account Information Via the Internet



             eAuthentication application, and the current plans and schedule to roll out the
             eAuthentication application to additional online applications and to additional banks.
        C. Determined how the eTranscripts for Banks application with Chase Bank works and
           where communication with Chase Bank occurs within the eAuthentication
           application.
        D. Determined whether the current eTranscripts for Banks application meets the intent of
           RRA 981 and the E-Government Act of 20022 requirements.
IV.     Determined costs for the full deployment of the eAuthentication application.
        A. Obtained total costs to date by fiscal year for the eAuthentication application from the
           eAuthentication project manager or other responsible IRS officials.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the plans, policies, and processes of the
IRS Cybersecurity, Applications Development, Office of Online Services, and Procurement
organizations to manage, monitor, and report on the status and progress of efforts to provide
taxpayers with secure online access to their tax account information. We evaluated these
controls by conducting interviews and meetings with management and staff, performing
independent analysis of controls in place, and reviewing documentation such as standard
operating procedures, meeting minutes, and Enterprise Life Cycle artifacts.




1
  Restructuring and Reform Act of 1998, Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C.,
and 49 U.S.C.).
2
  E-Government Act of 2002, Pub.L. 107–347, 116 Stat. 2899, 44 U.S.C. § 101, H.R. 2458/S. 803.
                                                                                                           Page 12
                 While Efforts Are Ongoing to Deploy a Secure Mechanism to
                  Verify Taxpayer Identities, the Public Still Cannot Access
                       Their Tax Account Information Via the Internet



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Kent Sagara, Director
Myron Gulley, Acting Audit Manager
W. Allen Gray, Audit Manager
Charles O. Ekunwe, Lead Auditor
Samuel C. Mettauer, Information Technology Auditor
Linda Nethery, Information Technology Auditor
Larry Reimer, Information Technology Auditor




                                                                                     Page 13
                While Efforts Are Ongoing to Deploy a Secure Mechanism to
                 Verify Taxpayer Identities, the Public Still Cannot Access
                      Their Tax Account Information Via the Internet



                                                                            Appendix III

                        Report Distribution List

Acting Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Director, Office of Research, Analysis and Statistics RAS
Chief, Criminal Investigations SE:CI
Director, Statistics of Income RAS:S
Human Capital Officer OS:HC
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Associate Chief Information Officer, Strategy and Planning OS:CTO:SP
Associate Chief Information Officer, User and Network Services OS:CTO:UNS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Risk Management Division OS:CTO:SP:RM




                                                                                  Page 14
     While Efforts Are Ongoing to Deploy a Secure Mechanism to
      Verify Taxpayer Identities, the Public Still Cannot Access
           Their Tax Account Information Via the Internet



                                                     Appendix IV

Management’s Response to the Draft Report




                                                             Page 15
While Efforts Are Ongoing to Deploy a Secure Mechanism to
 Verify Taxpayer Identities, the Public Still Cannot Access
      Their Tax Account Information Via the Internet




                                                        Page 16
While Efforts Are Ongoing to Deploy a Secure Mechanism to
 Verify Taxpayer Identities, the Public Still Cannot Access
      Their Tax Account Information Via the Internet




                                                        Page 17
While Efforts Are Ongoing to Deploy a Secure Mechanism to
 Verify Taxpayer Identities, the Public Still Cannot Access
      Their Tax Account Information Via the Internet




                                                        Page 18
